<html>
<title> - BEYOND THE CITIZENSHIP QUESTION: REPAIRING THE DAMAGE AND PREPARING TO COUNT `WE THE PEOPLE' IN 2020</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                    BEYOND THE CITIZENSHIP QUESTION:
                   REPAIRING THE DAMAGE AND PREPARING
                    TO COUNT `WE THE PEOPLE' IN 2020

=======================================================================

                                HEARING

                               BEFORE THE

            SUBCOMMITTEE ON CIVIL RIGHTS AND CIVIL LIBERTIES

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                               AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             JULY 24, 2019
                               __________

                           Serial No. 116-52
                               __________

      Printed for the use of the Committee on Oversight and Reform


                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                                   

                  Available on: http://www.govinfo.gov
                    http://www.oversight.house.gov or
                        http://www.docs.house.gov
                   
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
37-949 PDF                 WASHINGTON : 2020                    
                   
                   
                   
                   COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Paul A. Gosar, Arizona
Wm. Lacy Clay, Missouri              Virginia Foxx, North Carolina
Stephen F. Lynch, Massachusetts      Thomas Massie, Kentucky
Jim Cooper, Tennessee                Mark Meadows, North Carolina
Gerald E. Connolly, Virginia         Jody B. Hice, Georgia
Raja Krishnamoorthi, Illinois        Glenn Grothman, Wisconsin
Jamie Raskin, Maryland               James Comer, Kentucky
Harley Rouda, California             Michael Cloud, Texas
Katie Hill, California               Bob Gibbs, Ohio
Debbie Wasserman Schultz, Florida    Ralph Norman, South Carolina
John P. Sarbanes, Maryland           Clay Higgins, Louisiana
Peter Welch, Vermont                 Chip Roy, Texas
Jackie Speier, California            Carol D. Miller, West Virginia
Robin L. Kelly, Illinois             Mark E. Green, Tennessee
Mark DeSaulnier, California          Kelly Armstrong, North Dakota
Brenda L. Lawrence, Michigan         W. Gregory Steube, Florida
Stacey E. Plaskett, Virgin Islands
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
              Candyce Phoenix, Subcommittee Staff Director
                      Valerie Shen, Chief Counsel
                          Amy Stratton, Clerk
               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051
                                 ------                                

            Subcommittee on Civil Rights and Civil Liberties

                    Jamie Raskin, Maryland, Chairman
Carolyn Maloney, New York            Chip Roy, Texas, Ranking Minority 
Wm. Lacy Clay, Missouri                  Member
Debbie Wasserman Schultz, Florida    Thomas Massie, Kentucky
Robin Kelly, Illinois                Mark Meadows, North Carolina
Jimmy Gomez, California              Jody Hice, Georgia
Alexandria Ocasio-Cortez, New York   Michael Cloud, Texas
Ayanna Pressley, Massachusetts       Carol D. Miller, West Virginia
Eleanor Holmes Norton, District of 
    Columbia



                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on July 24, 2019....................................     1

                               Witnesses

The Honorable Steven Dillingham, Ph.D. Director, U.S. Census 
  Bureau
Oral Statement...................................................     5
Robert Goldenkoff, Director of Strategic Issues, U.S. Government 
  Accountability Office
Oral Statement...................................................     7
Nicholas Marinos, Director of Information Technology and 
  Cybersecurity, U.S. Government Accountability Office
Oral Statement...................................................     8

Written opening statements and witnesses' written statements are 
  available in the U.S. House of Representatives Repository: 
  https://docs.house.gov.


                           Index of Documents

                              ----------                              

The documents listed below are available at: https://
  docs.house.gov.

  * Questions for the Record from Rep. Miller to Mr. Goldenkoff, 
  and responses.

  * Questions for the Record from Rep. Raskinto the U.S. Census 
  Bureau, and responses.

 
                    BEYOND THE CITIZENSHIP QUESTION:
                   REPAIRING THE DAMAGE AND PREPARING
                    TO COUNT `WE THE PEOPLE' IN 2020

                              ----------                              


                        Wednesday, July 24, 2019

                   House of Representatives
   Subcommittee on Civil Rights and Civil Liberties
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 1 p.m., in 
room 2154, Rayburn House Office Building, Hon. Jamie Raskin 
presiding.
    Present: Representatives Raskin, Maloney, Clay, Wasserman 
Schultz, Kelly, Gomez, Ocasio-Cortez, Pressley, Norton, Massie, 
Meadows, Hice, Cloud, Miller and Keller.
    Also present: Representative Horsford.
    Mr. Raskin. Good afternoon. Welcome. Thank you all for 
coming today. Welcome to our subcommittee hearing on the status 
of the 2020 census.
    I want to start by welcoming a new member to the 
subcommittee as well as a new member to the Oversight 
Committee, Fred Keller, who comes from Pennsylvania 12. 
Welcome. We are delighted to have you.
    And also, let's see, without objection I want to waive onto 
the subcommittee today Steven Horsford from Nevada, who wanted 
to ask question. And so by unanimous consent we will grant him 
that privilege.
    Before I make my remarks, I want to thank our witnesses for 
their ongoing cooperation with our subcommittee. Mr. 
Goldenkoff, Mr. Marinos, you and your staff have been truly 
excellent partners in this oversight process, so I want to 
thank you both. Dr. Dillingham, I also want to thank you for 
your work preparing for the 2020 census.
    I learned from my district staff earlier this month that 
you toured Silver Spring and Langley Park in beautiful 
Montgomery County, Maryland. These are diverse, high-density 
areas with a high concentration of immigrants, where a variety 
of languages are spoken, and I really appreciate you coming out 
to check out our community. My district director, Kathleen 
Connor, met with your staff this month and was really 
encouraged by the Bureau's preparation, so I want to thank you 
and your staff for your hard work.
    That work, of course, is ongoing. We have got a lot to 
accomplish before 2020. We spent a lot of the last year 
embroiled in a battle over the citizenship question. Now that 
the Administration has been forced to stand down by Congress 
and by the Supreme Court the Bureau must devote all available 
resources to repairing the damage of this effort, getting us 
back on track, and conducting a complete and accurate account 
in 2020.
    Although the move to impose the citizenship question has 
been rejected by the courts as arbitrary and capricious, I fear 
that it may still be endangering an accurate count in 2020, so 
I am eager to hear about the aggressive steps that the Bureau 
can take and is taking to repair the damage caused by this ill-
considered campaign.
    Every 10 years the Bureau struggles to count everybody in 
America--according to constitutional directives. Some 
communities, including communities of immigrants and people of 
color, are chronically under-counted. They then do not receive 
their fair share of government resources, in everything from 
Federal and state legislative representation to Medicaid and 
Head Start.
    The consequences of an under-count reverberate for decades. 
The Bureau's own study showed that distrust of the government 
imperils a good count. Among communities of color, 41 percent 
of Asian Americans, 35 percent of African Americans, and 32 
percent of Hispanics are very concerned about the census being 
used against them. Similarly, 39 percent of people who are not 
English proficient and 34 percent of those born outside the 
U.S. are afraid to respond in the census. So, there is a lot of 
fear in our communities that we have got to strive to overcome.
    The citizenship question, the President's Executive Order 
and his immigration policies, and the threatened raids all 
strike fear in the hearts of many of the communities that are 
already mistrustful of government. And even though the question 
will not be on the 2020 census, there is a test in the field 
right now where 240,000 families are being asked the 
citizenship question. Why is that?
    This decision to post the citizenship question to hundreds 
of thousands of people after the Supreme Court rejected it 
seems hard to reconcile with the reality of the Supreme Court 
decision and the unbroken defeat of the question in the lower 
district courts. So now we face the threat of prolonged 
confusion, and I do hope we can talk about that.
    The Bureau must outline specific steps it is taking to 
increase outreach to the communities whose participation has 
been chilled. Specifically, the Bureau must reassure everyone 
of the confidentiality of the data collected. It must reaffirm 
its commitment that census data will not be used for law 
enforcement purposes. It must clarify the impact of the 
President's Executive Order on the confidentiality and use of 
census data, and it must identify specific actions that it will 
take to differentiate itself from law enforcement in the field.
    In light of the damage done, I think the Bureau should 
increase outreach to hard-to-count communities instead of 
sitting on $1 billion in appropriated funds. Earlier this year, 
the Bureau told Congress it intends to carry over $1 billion to 
Fiscal Year 2020 instead of spending it this year. Why is that? 
I fail to see a compelling reason for the delay.
    The Bureau relies heavily on partnership specialists to 
create relationships in hard-to-count communities but it is two 
months behind on filling 1,500 positions, reportedly due to a 
backlog in background checks. But we can't afford this delay. 
Census staffers will soon begin knocking on doors. Shouldn't 
the Bureau be using the leftover funds or the existing funds to 
clear this backlog?
    Earlier this year, the House Appropriations Report ordered 
the Bureau to improve its communication strategy and to open 
questionnaire assistance centers, QACs, to reach communities 
missed in the Bureau's count. QACs would provide reliable 
locations in hard-to-count communities where people could seek 
face-to-face assistance from census staff. QACs only cost the 
Bureau $27 million in 2010. Why isn't the Bureau using the 
carryover funds to open QACs, as directed by Congress?
    The Bureau has been underfunded for many years. Now that it 
has been granted a healthy budget it is refusing to spend it. 
Outreach for the census should be fully funded now.
    Finally, the Bureau should improve its processes for 
tracking and implementing security recommendations to safeguard 
data and avoid missing key deadlines. I am alarmed to hear that 
the commerce inspector general recently found that the Bureau's 
IT systems contained fundamental security deficiencies that 
violated Federal standards, indicating that the Bureau is 
behind schedule in developing its systems for 2020. This is a 
common theme.
    GAO has noted that the Bureau is behind schedule on 
resolving 104 high-risk or very high-risk security 
vulnerabilities and that it has no schedule or process for 
implementing security recommendations that were rendered by the 
Department of Homeland Security. That is not acceptable. The 
Bureau is home to one of the largest data bases of identifiable 
personal information on the American people. The security of 
this data is paramount, not only to a well-run census but to 
the public's confidence in our system. I trust that the GAO has 
recommendations for the Bureau to get back on track and I look 
forward to hearing its plans for that today.
    And now I happily will yield to the ranking member of the 
committee, my friend, Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman. Thank you for calling 
this hearing. Obviously this is not the first hearing we have 
had on the census. The decennial census is something that we 
have had under this Administration and under the previous 
Administration where we have had timelines that we have been 
working on. So, Dr. Dillingham, we look forward to hearing from 
you in terms of how we are making progress.
    I do want to offer--I mean, this is Mr. Goldenkoff's at 
least ninth hearing, I think, as we look at this particular 
issue, because I know that when I was chairman of the 
Government Operations Subcommittee this was of critical 
importance that we get it done right. And so whether it is this 
Administration or the prior Administration, my fear had been, 
and continues to be, are we going to do those cybersecurity 
issues and the end-to-end testing to make sure that we can 
count on not only the privacy that the chairman talked about 
but the integrity of the system.
    I will also offer a little bit of a counter-narrative. We 
have spent way too much time on the citizenship question. It is 
time that we get serious about implementing this, and, 
candidly, any direction that we continue to maintain as it 
relates to the citizenship question is problematic, in terms of 
delivering and actually counting those individuals. I also know 
that there is a strong outreach. Dr. Dillingham, I want to 
thank you for the strong outreach to those, what I would say 
more rural and underserved communities, that the chairman was 
talking about. The funds that are allocated--I happen to agree 
that we need to roll those into next year, because I don't know 
about any of you but if there is a thing that most Americans 
are thinking about today, if there is a top 20 list, census 
doesn't make the top 20 list. I am just telling you. It will 
make it starting in March and April of next year, we will start 
to see that, and that outreach needs to really be dedicated. 
But we need to have the systems in place now.
    And so what I would say is identifying those systems, 
making sure that they are there, making sure that the way that 
we collect the data--I know this is going to be a 
groundbreaking way that we use the internet like we have never 
used it before. But we tried that in 2010, and it didn't work. 
And so the last thing I think this chairman wants, or that I 
want, is to have egg on our face when it comes to actually 
counting every individual.
    And regardless of where you stand on whether the 
citizenship question should be asked or not, it is imperative 
that we count everybody, and it is imperative that we do that 
in a way where we can allocate not only the resources, the $650 
billion or so that flows to each one of our districts, but that 
we do it in a fair and accurate way. And so I look forward to 
hearing from you on that.
    I have got a longer written statement that I would ask for 
unanimous consent to be added to the record.
    Mr. Raskin. Without objection.
    Mr. Meadows. I thank you, the chairman. And I apologize in 
advance. I actually have a meeting at the other end of 
Pennsylvania Avenue that I have to get to, and so we have got 
other people coming in, but we have got staff that is paying 
attention. And so with that I yield back.
    Mr. Raskin. Well, we appreciate that. We appreciate your 
very thoughtful remarks, Mr. Meadows, and we will release you 
to the uncertain fortunes of the Article 2 branch, and we will 
stick right here with Article 1 branch. But thank you for 
coming.
    I now have the pleasure of welcoming our witnesses. First 
is the Honorable Steven Dillingham, Ph.D., who is the Director 
of the U.S. Census Bureau; Robert Goldenkoff, who is the 
Director of Strategic Issues for the U.S. Government 
Accountability Office, the GAO; and Nicholas Marinos, the 
Director of Information Technology and Cybersecurity at the 
GAO, at the U.S. Government Accountability Office.
    I will begin by swearing all of you in, please rise, if you 
would, and raise your right hand. And Mr. Keller has been 
promoted very quickly to the ranking member of our committee.
    [Witnesses sworn.]
    Mr. Raskin. Let the record reflect that all the witnesses 
answered in the affirmative.
    Thank you, and please be seated.
    The microphones are sensitive, so please speak directly 
into them. And without objection, your written statements will 
be made part of the permanent record.
    With that, Director Dillingham, you are now recognized to 
give an oral presentation of your testimony for five minutes.

 STATEMENT OF STEVEN DILLINGHAM, Ph.D., DIRECTOR, U.S. CENSUS 
                             BUREAU

    Mr. Dillingham. Chairman Raskin and committee members, 
thank you for inviting me. This is an important time for the 
Census Bureau and the 2020 census. The census clock is ticking, 
we are increasingly ready, and we thank you for your support.
    Regarding the President's Executive Order, we are reviewing 
it. Steps have begun to form an interagency working group. We 
will share updates.
    Preparations for the census continue unabated and execution 
is near. The census will begin in remote Alaska in less than 
six months. The nationwide count commences in nine months, in 
March 2020.
    It is my opinion, one shared by the Census Bureau 
professionals, that we have an outstanding plan built upon best 
practices, with cost savings and important innovations. We have 
teams in place and hirings are underway. Our teams are entering 
a high-performance phase. Hiring is proceeding. Training is 
continuing. Safety and accountability are progressing. 
Currently we are onboarding tens of thousands of address 
listers. We appreciate congressional help in recruiting them.
    With hurricane season here, we must be prepared for 
disasters and unforeseen events. When a disaster strikes, we 
can and will adapt. Information system readiness and 
cybersecurity are paramount. Our well-designed IT systems and 
integrated operations are working. We test for functionality, 
scalability, and, of course, cybersecurity. Data is encrypted 
at every stage. We are working closely with government and 
industry experts.
    Oversight, accountability, and support are valued. First, 
we are committed to assisting Congress and this subcommittee. 
Second, we appreciate the work of the Government Accountability 
Office and Office of Inspector General. We agree the 2020 
census is high risk, given its scope, complexity, and 
importance.
    Third, we appreciate bipartisan support, including 
continued funding. Appropriators requested a plan for 
additional funds. We developed an option to increase community 
partnership assistance and hard-to-count outreach.
    Our highest priority, as mentioned by the chairman, is to 
reach hard-to-count groups. We continue to identify and visit 
such communities, found in all states and in urban, suburban, 
and rural areas. During my travels I see partners reaching 
people in new and better ways. Counting children has been a 
perennial challenge. We are working closely with pediatricians 
and schools. We have plans to reach the homeless. Our 
partnership specialists from local communities and different 
backgrounds enhance these efforts. We have integrated, 
research-based outreach campaign that messages for diverse 
communities.
    I often repeat the message that the 2020 census is easy, 
safe, and important. A member of the congressional Hispanic 
Caucus recently suggested that I reverse that order.
    The census is important. Its importance increases daily. 
Data is used for apportionment and redistricting, and by 
governments at all levels in developing policies and 
administering programs for billions of dollars reaching 
millions of people. Funds support education, transportation, 
health and human services, safety jobs, and more. It is used by 
government, businesses, and families.
    The census is safe. Census data remains secure with 
confidentiality protected. Congress passed stringent laws with 
severe criminal penalties of imprisonment and fines for 
violations. Census employees take a lifetime oath to protect 
our data. The Census Bureau sets the highest standard and 
maintains a culture and practice of protecting data. It is not 
shared with anyone or any agency.
    Finally, the census is easy. This is due to improvements in 
technologies. People may complete the census anytime, anywhere. 
Our language assistance will reach more than 99.6 percent of 
the population. This will be the first census ever where people 
may choose to answer electronically. If people prefer paper, 
questionnaires will arrive automatically in the mail.
    I describe our technologies and tools in context of a 
familiar story. Late at night, a person sees a friend under a 
street lamp, looking for a lost item. The friend joins the 
search but is having no luck. He asks his friend, ``Are you 
sure you lost it here?'' The friend replies, ``No. I dropped it 
down the block in the dark, but I am looking here because the 
light is better.''
    We can no longer rely on collecting data in the usual ways 
and places. With internet and phone options we have tools to go 
into the less-visible, hard-to-count areas and collect the 
data. In the boroughs of New York City, mobile devices can 
count in the street markets or among the students at Queens 
College. In Detroit, they can be used in civic centers and 
houses of worship. In South Carolina and Georgia, the 
technology can count persons displaced from closed mill 
villages or rural farms.
    In Silver Spring, Maryland, you can deploy the tools in 
community centers and commercial establishments like Korean 
Corner. In Baltimore, Maryland, libraries and recreation 
centers alone provide 80 locations with interconnectivity that 
can and will be used. Partnership specialists will work with 
community groups, using computers and laptops and phones, to 
count others wherever they may be, including homeless beneath 
the freeway. Options for reaching hard-to-count persons are 
limited only by imagination and initiative. In Baltimore, I met 
partners with great ideas and initiative.
    On the lighter side, I made an offer to the mayor to repeat 
a well-known act of a previous mayor. When the opening of the 
city's aquarium was delayed, that mayor publicly fulfilled his 
bet on the opening date by jumping, with cameras rolling, into 
the aquarium's seal pool. I made that pledge to Mayor Young 
last week. If the city's response rate matches or exceeds the 
state average, I would love to jump into the seal pool to 
celebrate the city's success. I expect to lose that bet. The 
Baltimore city's plan, that I have with me, was released on 
Friday. It is complete with extensive partnerships and a host 
of exciting innovations.
    I am optimistic about what I am seeing across the Nation. 
Preparations are underway. Partnerships are increasing. 
Interest and enthusiasm are growing. Working together, arm in 
arm, hand in hand, and with new technologies, expanded 
outreach, and community partnerships, we can conduct the best 
census ever, one that is complete and accurate.
    I look forward to answering your questions.
    Mr. Raskin. Thank you very much, Mr. Dillingham. Mr. 
Goldenkoff, you are recognized for five minutes.

 STATEMENT OF ROBERT GOLDENKOFF, DIRECTOR OF STRATEGIC ISSUES, 
             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Goldenkoff. Chairman Raskin and members of the 
subcommittee, GAO is pleased to be here today to discuss the 
Census Bureau's readiness for the 2020 head count.
    As you know, in recent years we have identified a number of 
operational, IT, cybersecurity, and other challenges that raise 
serious concerns about the Bureau's ability to conduct a cost-
effective enumeration. In February 2017, we added the 2020 
census to GAO's list of high-risk government programs and it 
remains on our high-risk list today.
    My remarks this afternoon will focus on two such 
challenges--implementing design innovations aimed at 
controlling costs and hiring temporary staff. My colleague, 
Nick Marinos, will then discuss the challenges the Bureau faces 
in implementing and securing critical IT systems.
    The bottom line is that as the countdown to census day 
grows short, the Bureau has made important progress toward 
mitigating some of the risks facing the census, and we are 
encouraged by the Commerce Department and Census Bureau's 
leadership commitment toward carrying out a cost-effective 
enumeration.
    Still, the Bureau estimates the census may cost as much as 
$15.6 billion, a $3 billion increase over the Bureau's original 
estimate, and significant uncertainties lie ahead. For example, 
with respect to design innovations to help control costs while 
maintaining accuracy, the Bureau will use new procedures and 
technology for 2020, including greater use of automated data 
collection methods, administrative records in place of data 
collected by enumerators, verifying most addresses using aerial 
imagery and other in-office procedures rather than by going 
door to door, and allowing households the option of responding 
to the census via the internet.
    These innovations show promise for controlling cost but 
they also introduce new risks, in part, because they have not 
been tested extensively, if at all, in earlier enumerations. As 
a result, testing is essential to ensure that key IT systems 
and operations will function as planned. However, citing 
budgetary uncertainties, the Bureau scaled back operational 
tests in 2017 and 2018. Without sufficient testing across a 
range of geographic locations, housing types, living 
arrangements, and demographic groups, operational problems can 
go undiscovered and the opportunity to refine procedures and 
systems could be lost.
    Another risk factor is the hiring of temporary staff, and, 
in particular, the onboarding of partnership specialists. 
Currently, the Bureau plans to recruit approximately 2.24 
million applicants, and from these, to hire over 400,000 
temporary field staff for two key operations, address 
canvassing and non-response followup. According to Bureau 
officials, the Nation's current low unemployment rate has not 
yet impacted their ability to recruit staff, and as of July 
2019, the Bureau reported that for all 2020 census operations 
it had processed just over 500,000 applicants.
    But at the same time, the Bureau was also seeking to hire 
approximately 1,500 partnership specialists by the end of June 
2019, to help increase census awareness in minority communities 
and hard-to-count populations. The Bureau fell short of this 
goal with just 903 partnership specialists hired as of July 6, 
and as of July 17, another 872 applicants were awaiting to have 
their background checks completed. The Bureau expects to have 
all 1,500 partnership specialists on board by September 1, 
2019.
    In the coming weeks, it will be important for the Bureau to 
hire and retain the full complement of partnership staff 
planned for 2020. Otherwise, it might affect the Bureau's 
outreach efforts to key communities at risk of being 
undercounted.
    In short, while the Bureau and Department of Commerce have 
taken steps to keep preparations for the decennial on track, 
additional steps are needed. Going forward, to help ensure a 
cost-effective head count, continued leadership attention and 
strong congressional oversight will be needed to help ensure 
that the Bureau implements our open recommendations, that key 
components and systems work as required, that preparations stay 
on schedule, and management functions follow leading practices.
    This concludes my prepared remarks, and I now turn it over 
to my colleague, Nick Marinos, who will discuss the risks 
facing the Census Bureau's IT and cyber systems.
    Mr. Raskin. Thanks very much.
    Mr. Marinos, you are recognized for five minutes.

    STATEMENT OF NICHOLAS MARINOS, DIRECTOR OF INFORMATION 
 TECHNOLOGY AND CYBERSECURITY, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Marinos. Thank you, Chairman Raskin and members of the 
subcommittee. Thank you very much for inviting GAO to discuss 
the Bureau's efforts to prepare for the 2020 census.
    As Robert mentioned, our most recent high-risk report 
highlighted a number of IT-related challenges facing the 
Bureau. These include IT systems readiness and cybersecurity. 
The bottom line is that these challenges still remain today, 
and we believe that it is important for the Bureau to overcome 
them prior to the 2020 census.
    Starting with systems readiness, the Bureau plans to rely 
heavily on IT for the 2020 census, including through the 52 
systems it plans to use during different stages of census 
operations. Many of these systems will be deployed multiple 
times in order to add needed functionality over the course of 
16 operational deliveries.
    The Bureau has delivered the first group of systems to 
support early hiring and training, and the next few months will 
see key testing and production deadlines for many additional 
systems. However, our ongoing work has determined that the 
Bureau is at risk of not meeting key IT milestones for five 
upcoming operational deliveries. These include deliveries in 
support of internet self-response, a new innovation that the 
Bureau intends to rely on for a significant portion of 
responses to the census, and recruiting and hiring for peak 
operations, which includes hiring hundreds of thousands of 
temporary employees to assist with counting the population. The 
Bureau needs to closely monitor these schedule risks in order 
to ensure that the systems are all delivered on time.
    Regarding cybersecurity, the Bureau is working hard to 
assess security controls, take needed corrective actions, and 
gain the proper sign-off to ensure that each system is ready 
for operations. Although a large majority of the 52 systems 
have at least received an initial authorization to operate, 
significant assessment work remains. According to the Bureau, 
nine systems will need to have their security controls 
reassessed to account for additional development work prior to 
the 2020 census, and five systems are still awaiting that 
initial authorization.
    I would like to note that we have been encouraged that the 
Bureau is coordinating with the Department of Homeland Security 
on cyber issues. DHS has provided this assistance through cyber 
threat intelligence and information sharing and through 
conducting instant management and vulnerability assessments, 
among other activities.
    All of these internal and external assessment efforts, 
including the recent evaluation performed by the Commerce 
Department's Office of the Inspector General, are vital, 
especially since the majority of the Bureau's systems that will 
support 2020 operations contain personally identifiable 
information.
    At the end of the day, however, they will only be as 
valuable as the corrective actions the Bureau takes in response 
to them. We recently made two recommendations to the Bureau for 
management attention in this area. The first called for the 
Bureau to address its security to-do list in a timelier manner, 
and the second called for it to establish a formal process for 
tracking and completing actions in response to DHS' 
assessments.
    The Bureau reported that it is working to implement our 
recommendations. If fully implemented, the Bureau will be 
better positioned to ensure that assessments will result in 
high-priority improvements to its cybersecurity posture.
    In summary, we are running short on time before key census 
operations begin. Moving forward, it will be critical for the 
Bureau to devote enough attention and effort to completing IT 
system development activities and implementing cybersecurity 
improvements in a timely and prioritized way.
    Mr. Chairman, this concludes my statement.
    Mr. Raskin. Thank you very much for that cogent 
presentation. Thanks to all of the witnesses. We will now begin 
our questioning according to the five-minute rule. I now 
recognize myself for five minutes.
    I want to focus on the confusion caused by the census test 
that is currently in the field. Despite the Administration's 
abandonment of the citizenship question in the wake of the 
Supreme Court decision, hundreds of thousands of households are 
now still being asked to answer it. In mid-June, while the case 
was pending, before the Supreme Court made its ruling on June 
27, the Bureau pushed a last-minute field test to 480,000 
households, half of which got the citizenship question and half 
of which did not.
    The result has been confusion. Hundreds of thousands of 
people heard the news that the question wouldn't be asked, and 
yet they received a form from the census with precisely the 
question that the Supreme Court had rejected. Just last week, 
we got a phone call from a citizen wanting to know why she had 
received a census form with the citizenship question. I was 
asked that at a town hall meeting over the weekend. According 
to the Washington Post, one Florida resident who received the 
form said that receiving the test questionnaire, quote, ``feels 
like a scare tactic.''
    So, Dr. Dillingham, everyone knew the Supreme Court had to 
rule on the citizenship question case at the very latest by the 
end of June. Why didn't the Bureau wait until the end of the 
month to hear what the court's decision was before launching 
this test?
    Mr. Dillingham. Mr. Chairman, that is an excellent 
question. Let me provide some context for you.
    The planning--this is actually a test, a 2019 test, was 
designed for operational consequences and impact. So if the 
question was going to be in the census, we wanted to know what 
would be the differential impact for purposes of devoting 
resources, such as the partnerships, such as the enumerators, 
et cetera.
    The planning for it began actually last calendar year. The 
printing occurred, I think, in April, and it followed a 
schedule as perfectly as possible, the same type of schedule 
that we would have for the 2020 census, and that is the 
staggered mailings, et cetera, response dates. It was to 
replicate, as closely as possible, the 2020 census.
    Now the form itself, on each page, has ``this is a test,'' 
and in the introduction it says, ``This is a test to help us 
prepare for the 2020 census.'' So anyone that reads the 
information, it should be quite bold, that this is a test.
    Mr. Raskin. But if it says to get ready for the 2020 
census----
    Mr. Dillingham. That is correct.
    Mr. Raskin [continuing]. it implies that the citizenship 
question will indeed be on the 2020 census.
    Mr. Dillingham. Well, it certainly implies it is a 
possibility. So again, half went out without the question, half 
went out with the question, and our desire was to see what is 
the differential impact.
    So we followed the schedule and actually, I think--and I 
will double-check--only one of the staggered mailings that I 
think stretched about probably six weeks, the same as with the 
census, or maybe it was a little more condensed, but five or 
six weeks, I recall, it was already--before the Supreme Court 
ruled--four or five of those were already in the mail, and 
actually the last went out earlier this week.
    Mr. Raskin. Whose decision was that?
    Mr. Dillingham. That was actually the career staff at the 
Census Bureau felt it was very important that we would know the 
operational impact for purposes of resources.
    Mr. Raskin. So you never made that judgment?
    Mr. Dillingham. No, I did not make that decision.
    Mr. Raskin. All right. Thank you.
    Mr. Goldenkoff, is it normal to have a large-scale field 
test like this, this close to the census? In other words, if we 
went back to the 2010 census, would we have found a similar 
test in 2009?
    Mr. Goldenkoff. No, and I think this highlights the risks 
associated with last-minute design changes to a decennial 
census. Typically, the last major test is conducted in the 
eighth year of the decade, and so when you do this--and I 
don't--you know, you could argue this was an important risk 
mitigation strategy----
    Mr. Raskin. I see that.
    Mr. Goldenkoff [continuing]. with everything that was going 
on. But, you know--and it will take a lot of effort to kind of 
get the word out on ``what was this?'' And, you know, even 
though it says ``test'' on every page, it could still strike 
some concerns.
    Mr. Raskin. Mr. Dillingham, just to be clear, is it still 
going on? In other words, are there still people----
    Mr. Dillingham. All the mailings have been made and we are 
getting the results. I did check last night, and out of the 
480,000 that have been mailed, more than 200,000 had been 
returned. But the only information we have--we haven't looked 
at the content of the returns--but it does verify and provide 
some very important information for us, and that is with regard 
to both the 2020 census and potentially in the future, what 
kind of impact this may be.
    One of the things that you can tell, just by looking at the 
basic data returning, is that the hard-to-count areas, again, 
are responding at a much less rate than the other areas. So 
that is helping to verify that.
    Mr. Raskin. Are people being mandated to respond to the 
test? I mean, are you required to answer that question?
    Mr. Dillingham. Mr. Chairman, actually, under the laws 
governing the Census Bureau, when we send out a survey it does 
recite that this is pursuant to law and you are supposed to 
reply to it. That is----
    Mr. Raskin. So there are hundreds of thousands of people 
who, in essence, are being told they are legally obligated to 
answer the citizenship question right now.
    Mr. Dillingham. Well, in the context of a test. We do 
testing, all sorts of testing and surveys, and so it really is 
part of the routine business. But this was to look at the 
impact for operational purposes.
    Mr. Raskin. Okay. My time has expired and I now recognize 
Mr. Keller for five minutes.
    Mr. Keller. Thank you, Mr. Chairman. Thank you, gentlemen, 
for being here today.
    I just want to make sure that I understand. I know we 
talked about the importance of making sure we count everybody 
accurately so that money gets appropriated properly. I think 
another concern of the American citizens is the fact when they 
transmit information to the government that that information is 
secure.
    And the question I have goes to the IT systems that we are 
putting in place. Are they government employees that do that or 
do we contract the building of that software from private 
companies? I guess, Mr. Marinos, that would be----
    Mr. Marinos. So the answer is that contractors are 
leveraged by the Bureau, and so there is a significant 
responsibility on the Bureau to ensure oversight of those 
contractors.
    Mr. Keller. Okay. So if we do that, you are confident that 
we have--and I guess, Mr. Dillingham or Mr. Marinos, you can 
answer this--we are confident that we have accurately and 
thoroughly vetted these contractors to make sure that the 
information will remain secure and that there is no possible 
way for anybody to hack into it or get that personal 
information of American citizens?
    Mr. Marinos. I would defer to Dr. Dillingham.
    Mr. Dillingham. Congressman Keller, we have very elaborate 
protections. As you are well aware, Title 13 requires, by law, 
that we protect this information. So we had existing security 
and it goes into, but in the collection, during the 2020 
census, using the new devices, we have the latest state-of-the-
art software and devices that encrypts the information 
automatically. It encrypts it when it goes into the device, and 
when it is sent to the----
    Mr. Keller. I understand that, but the companies that build 
this, we are sure there is no way that there is anything built 
into it that anybody can hack into this and gain access to the 
information?
    Mr. Dillingham. I can assure you--and we do. There are the 
requirements, the security requirements, for the contractors as 
well, and that we work with them and monitor, et cetera. And 
then it goes into, I will call it our normal safeguarding 
systems. We do apply the state-of-the-art, we have the best 
minds, both in the private sector and the public sector, 
working with DHS, the intelligence agencies, as well as the 
major high-tech companies to look at this. And so I can assure 
that we have identified no major issue that would be the type 
of breach that you----
    Mr. Keller. We have identified none. And again, I just want 
to--a question regarding a $61 million printing and mailing 
contract issued by the Government Printing Office, awarded in 
October 2017. It is my understanding that the company receiving 
the contract has filed for bankruptcy, after they received a 
payment from the Federal Government?
    Mr. Dillingham. Mr. Congressman, that does predate me, but 
my understanding is--and I think the record is clear, 
publicly--that a contract was let out of the Government 
Printing Office, and the firm that it was given to had 
financial problems, and, in fact, it resulted in a settlement 
and having to go with another contractor.
    Mr. Keller. Understand my concern. If we, as the Federal 
Government, couldn't even vet a company as far as financial 
stability and make a payment to them, I think that we should 
have some concern that we would be able to make sure that the 
companies building the software, that American citizens are 
going to be using to transmit their information, that their 
information remains secure.
    I hope you can understand the concern that I have, and 
maybe you can speak to what processes have been put--or let me 
ask you this. Have processes been put in place----
    Mr. Dillingham. Yes.
    Mr. Keller [continuing]. to make sure?
    Mr. Dillingham. Yes, and I am certain that--again, we had 
another Federal agency involved that actually lets those 
contract, the Government Printing Office, and I do know that 
both in our agency as well as in that agency reforms were made, 
changes were made to guard against that in the future.
    Mr. Keller. Another question, just real quickly. I 
understand, too, that we let a contract for a company and the 
company was sold and the company sold that contract, or the 
subsidiary that was doing that, to another company. Do we 
approve that, if a company is offered a contract or awarded a 
contract, and they sell that subsidiary or whatever?
    Mr. Dillingham. Mr. Congressman, I think I better get back, 
and maybe with particulars from our acquisition folks as to 
what the Federal acquisition requirements are and our adherence 
to those.
    Mr. Keller. Okay. I guess the point I want to make, you 
know, in securing the information that American citizens are 
required to provide to their government I think should be 
paramount to all of us. And I have heard a lot of things about 
the citizenship question that was going to be asked. And that 
question should not be--citizenship should not be 
controversial. It is not new. But I think what our committee on 
oversight should do is make sure that when we require American 
citizens to transmit information to their government, that this 
committee--this committee focus on making sure that that 
information is secure and not going down a rabbit hole, and 
something that should not be controversial or is not new, in 
the form of a citizenship question. Thank you.
    Mr. Dillingham. Congressman, we agree.
    Mr. Raskin. The gentleman's time has expired. I now 
recognize the gentleman from the first district of Missouri, 
Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman, and thank you for 
conducting this hearing. As we know, the census is such an 
essential part of our government and of the operation of this 
country.
    Let me start with Dr. Dillingham. The marketing ad agency, 
VMLY&R, are they considered the census marketing prime 
contractor?
    Mr. Dillingham. Not to my knowledge, Congressman. We have--
the one we have, we call it Y&M, Young & Rubicam.
    Mr. Clay. Yes.
    Mr. Dillingham. Yes. Yes. Maybe that is the full name. I 
apologize.
    Mr. Clay. Yes. That is who.
    Mr. Dillingham. That is, I will call it, the prime 
contractor, and we have at least eight subcontractor that 
specialize, particularly with hard-to-count populations and 
special reach efforts.
    Mr. Clay. Can you tell me which--what entity or entities 
are responsible for the African American media buys?
    Mr. Dillingham. Congressman, we definitely have that 
information. People sitting behind me have that. I will be glad 
to talk with you and meet with you.
    Mr. Clay. Yes. Can you provide that to the committee?
    Mr. Dillingham. Absolutely.
    Mr. Clay. Let me ask you, when purchasing ads for the 
census, must contractors pay media outlets in advance, and if 
that is so, what is the timeframe for repayment? Is it 120 
days?
    Mr. Dillingham. Mr. Chairman, let me answer your former 
question, and I am told Carol H. William Agency is really the 
prime subcontractor with the African American population.
    The timing of the buying of the ads--this week, today, the 
career professionals at the Census Bureau are working, 
actually, in New York City, reviewing the creative products 
that are going to be produced for all forms of media--
television, radio, print media, et cetera--and out of that 
process will come the messaging and the materials and the 
creative products, is what they call it.
    The actual buying of time, to the best of my knowledge, is 
probably late December, but I will get you exact dates for 
purchasing. And I know that discussions are going on and there 
is a complexity, because some of the information is considered 
to be somewhat proprietary.
    Mr. Clay. And I do understand that, but when you have to 
pay in advance, do you think that that could inhibit some 
small, minority-owned companies from really being able to 
engage, with you and I knowing that we have to focus and do a 
better job on counting those hard-to-count populations. And so 
to have barriers in the place of these small businesses, it 
really doesn't make sense.
    Mr. Dillingham. Yes. Congressman, I certainly agree with 
your concerns and what I think we better do is get you some 
particulars as to the buying practices and the schedule dates. 
But I do know that another side of the coin is the sooner you 
buy the time, the cheaper it is. But we can work with you and 
see what coordination may be needed.
    Mr. Clay. And I would appreciate that. And, Mr. Chairman--
and perhaps the Bureau could help me with this--I would request 
that the Bureau provide this committee with the names of the 
minority-owned subcontractor firms and minority suppliers 
participating in the census 2020 marketing and advertising 
efforts for African Americans, the area of the country and 
communities that they are responsible for covering, the value 
of awarded contracts, and when these contracts were executed.
    I also want to know how these minority suppliers and firms 
were selected, and finally, I would like to know how much money 
total is being allocated for African American media. Can you 
help us----
    Mr. Dillingham. Congressman, we will be glad to get you 
that information.
    Mr. Clay [continuing]. with that information?
    Mr. Dillingham. Yes. Some of it may not have yet been 
decided, some of the buys, but we will get you what we have.
    Mr. Clay. And you and I understand how challenging it is--
--
    Mr. Dillingham. Yes.
    Mr. Clay [continuing]. to count hard-to-count communities. 
And so I want to work with the agency in every aspect of this.
    Mr. Dillingham. We join you on that goal, yes.
    Mr. Clay. Thank you. My time is up and I yield back.
    Ms. Ocasio-Cortez.
    [Presiding.] Thank you.
    The chair now recognizes the gentlelady from West Virginia, 
Ms. Miller.
    Mrs. Miller. Thank you, Madam Chairwoman and Ranking Member 
Hice, and thank you all for being here today.
    Democrats on our committee have been so consumed by the 
citizenship question all the while that we could have been in 
this very room performing the necessary oversight to make sure 
that this census goes smoothly, safely, and, most importantly, 
accurately counts the number of the people in the United 
States.
    If you look at the past decennial census, our committee is 
far behind in conducting the necessary oversight for the 2020 
census. Now is our opportunity to finally get to work and do 
what the American people have sent us here to do.
    Director Dillingham, my district in southern West Virginia 
is historically one of the hardest to count in the country. 
Over half of my constituents, 51 percent, live in so-called 
hard-to-count neighborhoods. What is being done by the Census 
Bureau to make sure that constituents in rural, hard-to-count 
neighborhoods are accurately accounted for?
    Mr. Dillingham. Congresswoman, as I mentioned in my opening 
statement, that is, in fact, the most important thing to the 
Census Bureau, is reaching the hard-to-count, and I understand 
many of the obstacles and challenges in West Virginia, as well 
as other states, and we are working on that very diligently. 
Let me just mention some of the very important ways.
    Certainly we just mentioned the communications outreach 
plan. So we will have national and localized advertising on the 
census, reminding people how easy, safe, and important it is, 
and we hope we will reach those communities. And I have seen 
communities such as yours that have special needs, 
particularly, some communities listen more to the radio, 
perhaps, than television. There are other avenues. Some 
actually, particularly ethnic communities, look at their local 
newspapers, and particularly if it is in a different language. 
So we have these outreach efforts.
    But another thing that we have done, which the chairman 
mentioned, is our partnerships. We have more than doubled the 
partnerships for this decennial census, and as I mentioned in 
my opening statement, we also--Congress asked us, the 
Appropriations Committee, to come up with--if we receive some 
additional funds, how would we use it? And we specifically 
provided in there that we want to continue some temporary 
employees during the census, if it is funded by Congress, to 
reach those hard-to-count communities and to deploy people with 
laptops and with phones, et cetera, to help reach them.
    But in the event that our public relations, communications, 
as well as our outreach efforts and the partnerships, even 
despite all the new resources we are applying to that in the 
new technologies, we ultimately have the enumerators, who will 
be coming around and knocking on the doors, and they will be 
doing that more efficiently, more professionally than ever 
before.
    So those are some of the things, but that is not an 
exhaustive list, and we totally agree with you that we want to 
reach those communities that are the hardest to count. And I 
have seen that, and when I went to the Navajo Nation--actually 
Navajo Nation, compares itself to West Virginia. It covers the 
same territory as West Virginia, but has its own set of 
circumstances. And we are working with them to make sure we can 
reach the hard-to-count.
    Mrs. Miller. That is good because I know television seems 
to be a good manner, you know, because of the satellites and 
the rest, that they can be reached. Cell phones are another 
story.
    Director, children under 10 years of age are the most 
difficult population to count, and this is doubly true in rural 
areas. What is the Census Bureau doing to make rural children, 
in particular, making sure that they will be counted?
    Mr. Dillingham. Congresswoman, another excellent question. 
Children are hard to count in many areas, and even outside what 
we would traditionally consider hard-to-count areas, but 
particularly important there.
    There has been a problem with counting children since the 
census began. I saw some information shared with me, back in 
1850 people were commenting on that, complaining about it--why 
is it difficult to count the children. Certainly the 
circumstances have changed and some of the factors have 
changed, but it has remained a perennial problem, counting the 
children.
    So we are partnering with organizations such as the Annie 
E. Casey Foundation, which has devoted staff and time and 
publications, and other national organizations. We are focusing 
on that hard-to-count population in our communications 
campaign, as well as with our partnership specialists. We are 
working with a variety of pediatrician groups. We are working 
with the cities--we call it the Statistics in Schools program, 
which is designed for the Census Bureau, in reaching the public 
schools, to reach the children.
    But then, finally, if we are not getting the results--and 
when we come around and ultimately may have to knock on the 
door, we have specially trained our people to ask special 
questions on, ``Do you have any children living in your 
household?'' et cetera. And even on the online internet we have 
a dropdown that reminds you about, are you counting the 
children?
    So we are looking at it from all angles. It continues to be 
a problem. We are working that problem. We are continuing to 
research that problem. But we have so many partners around the 
country that are also working on that problem, and cherish 
those relationships, to make sure that we are counting the 
children.
    Mrs. Miller. Mr. Goldenkoff, has the GAO----
    Ms. Ocasio-Cortez. I am sorry. The gentlelady's time has 
expired.
    Mrs. Miller. Thank you.
    Ms. Ocasio-Cortez. The chair will now recognize the 
gentlelady from Florida, Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Madam Chair.
    Dr. Dillingham, my questions will be directed at you. I 
want to focus on the Bureau's plan for Questionnaire Assistance 
Centers in the 2020 census, which provide localized, in-person 
assistance, as you know, in completing the census 
questionnaire, helping hard-to-count communities get counted.
    Only July 1st, Senator Jack Reed and our colleague, 
Congresswoman Brenda Lawrence, who is a member of this 
committee, sent you a letter asking for details on your 
proposal Mobile Response Initiative, which I understand is 
replacing the QAC program this year. Have you responded to that 
letter?
    Mr. Dillingham. Congresswoman, regretfully we have not.
    Ms. Wasserman Schultz. When will you be responding?
    Mr. Dillingham. As expeditiously as I can, after this 
hearing.
    Ms. Wasserman Schultz. More specifically, when will you be 
responding?
    Mr. Dillingham. We will be responding very quickly, and I 
will----
    Ms. Wasserman Schultz. Within the week? Within two weeks? 
Within three weeks?
    Mr. Dillingham. I would envision within two weeks.
    Ms. Wasserman Schultz. Within two weeks from now. Okay. 
Will you simultaneously provide a copy of your response to that 
letter to this committee?
    Mr. Dillingham. Absolutely.
    Ms. Wasserman Schultz. Thank you.
    Okay, Dr. Dillingham, I have some quick-fire, yes-or-no 
questions for you.
    In 2010, QACs counted more than 700,000 people. Correct?
    Mr. Dillingham. I--I--I am not--I would have to check that.
    Ms. Wasserman Schultz. I can assure you that that is now 
many the Census Bureau says they counted, which is more than 
the entire population, for example, of the state of Vermont. 
So, Dr. Dillingham, are there plans to open QACs across the 
country for the 2020 census?
    Mr. Dillingham. Congresswoman, there are not.
    Ms. Wasserman Schultz. So you are getting rid of these 
centers, where more people than the population of an entire 
state were counted?
    Mr. Dillingham. Congresswoman, let me explain that we are 
providing expanded advice and assistance through other 
mechanisms----
    Ms. Wasserman Schultz. Okay. I am going to----
    Mr. Dillingham [continuing]. than what was----
    Ms. Wasserman Schultz. I am going to get to asking you 
questions about that, because I don't share that view.
    Is it correct that the Fiscal Year 2019 Appropriations Bill 
Report specifically directed the Bureau to open QACs?
    Mr. Dillingham. That was not my understanding, 
Congresswoman.
    Ms. Wasserman Schultz. Okay. Well, I have----
    Mr. Dillingham. They did ask us to look at it----
    Ms. Wasserman Schultz.I have it right here----
    Mr. Dillingham. Yes.
    Ms. Wasserman Schultz.On page 611 of the Fiscal Year 2019--
--
    Mr. Dillingham. That is correct.
    Ms. Wasserman Schultz.CJS appropriations bill, which 
governs your agency, and it says, ``Additionally, the Bureau 
shall devote funding to expanded targeted communications 
activities as well as to open local Questionnaire Assistance 
Centers in hard-to-count communities.'' It says ``shall.''
    Mr. Dillingham. Okay. And I think--I don't want to differ 
with you on the language, but let me tell you how we are 
delivering that assistance.
    Ms. Wasserman Schultz. It is right here in black and 
white----
    Mr. Dillingham. That is correct----
    Ms. Wasserman Schultz. On page 611.
    Mr. Dillingham [continuing]. but let me tell you where--we 
are delivering more assistance than ever before, certainly than 
the last census.
    Ms. Wasserman Schultz. Okay. I have some more yes-or-no 
questions, because I don't agree with your characterization.
    Are you aware, according to the census' own audit, that 
many of these QACs were budgeted only enough for 15 hours of 
staff time per week, or were only open during hours when most 
people are at work?
    Mr. Dillingham. In the past census?
    Ms. Wasserman Schultz. Yes.
    Mr. Dillingham. I know there were problems----
    Ms. Wasserman Schultz. Yes or no? Are you aware of that 
fact?
    Mr. Dillingham. Not those specific facts but I knew there 
were problems.
    Ms. Wasserman Schultz. Okay. And that the Bureau's own 2020 
audit of QACs did not recommend eliminating QACs but working to 
improve them. Were you aware of that?
    Mr. Dillingham. I am aware they wanted the function 
fulfilled. That is correct.
    Ms. Wasserman Schultz. And did not recommend eliminating 
them.
    Mr. Dillingham. The bricks and mortar. We didn't go that 
approach.
    Ms. Wasserman Schultz. Right. Did the Bureau consider 
increasing the availability and staffing of QACs instead of 
eliminating them entirely?
    Mr. Dillingham. We very much not only considered but are 
increasing the staffing for that function.
    Ms. Wasserman Schultz. But you just said you are not going 
to have QACs.
    Mr. Dillingham. We have----
    Ms. Wasserman Schultz. And increase the staffing for that.
    Mr. Dillingham [continuing]. It is a matter of terminology, 
but when we have the mobile response units we consider those--
--
    Ms. Wasserman Schultz. Okay. I am going to ask you a 
question about the mobile response units in a moment.
    Earlier this year the Bureau told Congress it intended to 
carry over more than $1 billion in funds to Fiscal Year 2020, 
rather than spend it this year. Is that still the case?
    Mr. Dillingham. We have carryover funding to guarantee 
continuity of funding. That is correct.
    Ms. Wasserman Schultz. Of $1 billion?
    Mr. Dillingham. Approximately $1 billion, yes.
    Ms. Wasserman Schultz. Yes. So there is funding, 
appropriated funding available to you, that you could be using 
immediately to open QACs with the census being right around the 
corner.
    Dr. Dillingham, will the Bureau commit to using some of the 
$1 billion--and I am an appropriator so this matters to me--in 
carryover funds to open QACs.
    Mr. Dillingham. Congresswoman, my understanding is it is 
not feasible at this point in time.
    Ms. Wasserman Schultz. I beg to differ. So let's talk about 
the Mobile Response Initiative that you are touting. In a 
report the Bureau prepared for Congress you criticized QACs 
because they required individuals to find a physical location, 
set it up at regular hours to provide assistance. Your Mobile 
Response Initiatives actually are, for the most part, going to 
be two-person teams with iPads, popping up at markets, 
festivals, and events.
    Now I know from experience that unpredictable things like 
weather can affect turnout at events. I went to a festival in 
June, for the Juneteenth, and it poured rain in South Florida, 
and no one came. How will two people with an iPad find critical 
mass in that way?
    Mr. Dillingham. We have actually an interactive live 
system. We call it the ROAM system, which is the Response 
Outreach Area Mapping tool, that we can monitor tracks during 
the census. We can monitor self-response rates. We can target 
those tracks----
    Ms. Wasserman Schultz. With two people.
    Mr. Dillingham. No, no, no, no.
    Ms. Ocasio-Cortez. The gentlelady's----
    Mr. Dillingham. No, no. We would have more. Would have more 
and we would have a multitude of partners. And so in our 
discussions----
    Ms. Wasserman Schultz. Not according to your plan.
    Ms. Ocasio-Cortez. The gentlelady's time has expired.
    Ms. Wasserman Schultz. Thank you, Madam Chair. I appreciate 
it and thank you, Dr. Dillingham, for your answers. You have 
some work to do.
    Mr. Dillingham. Thank you.
    Ms. Ocasio-Cortez. The chair now yields to the gentleman 
from Georgia, Mr. Hice.
    Mr. Hice. Thank you very much, Madam Chair. Thank you for 
being here. I, too, am very glad that we are finally getting 
around to oversight on the census. I believe we are majorly 
behind the eight ball at this point, and there are so many 
issues to deal with, from the IT component, the overall 
strategy and performance and budget, staffing, on and on and 
on.
    But I would like to begin, if I can, Director, on the IT 
component. This whole issue of cyber threat increasingly is 
becoming an issue across the board on so many different areas 
of our personal lives as well as business and government. Where 
do we stand on this?
    Mr. Dillingham. Congressman, that is, you know, one of the 
primary concerns, certainly, of anyone following the census, 
but the GAO and others, it is something of a concern with the 
Census Bureau. We have been working on it since the last 
decennial census. We are putting a lot of protections in place. 
We are working with the leading Federal agencies. We are 
working with DHS. We are working with their Community and 
Infrastructure Security Agency very closely, visiting their 
facilities, and also working with them on a five-pronged plan, 
which is the management, the intelligence, the network 
security, the response areas, the incidents, as well as the 
assessments.
    We are also working the private sector. We are working with 
the leaders in the high-technology industry. They are assisting 
us in many different ways.
    Cybersecurity is of concern, and GAO actually says it is a 
governmentwide concern, of course, throughout the Federal 
Government, and we are doing everything we can to make sure we 
have the best minds, the best people, and the best policies and 
the best tools to deal with it.
    So we are making tremendous progress. We continue to work 
on it. Certainly by January we will have our systems fully 
tested on cybersecurity. But cybersecurity remains an issue. We 
are all aware that across the globe that threats are posed, and 
we do scan--I want to explain. We scan, each month, over 
100,000 vulnerabilities. So we have an ongoing, very intense, 
very rigorous process for looking for those threats.
    Mr. Hice. Okay. I would tend to differ with you on some of 
your--I mean, you have lofty words stating that you are ready 
and everything is pie in the sky. I have much more serious 
concerns of that. Mr. Marinos, what about you? There is going 
to be more IT involved in this census than any one in our 
Nation's history. Where do you see that we stand on 
cybersecurity?
    Mr. Marinos. It is definitely a key element to the high-
risk area that GAO designated back in 2017, with respect to the 
2020 census. Two big things here. One is the additional testing 
that Bureau has ahead of it with respect to cybersecurity. We 
are talking about having to reassess nine system out of the 52, 
and then assess five systems to get them to the point of a sign 
up that says, yes, we are good to go.
    On the other side, we credit the Bureau for the assessment 
efforts it has done to date, as well as the work that the 
Department of Homeland Security has done, but we would really 
like to see that turn into corrective actions implemented.
    And so I think ahead of it the Bureau has still some work 
to do when it comes to assessments, but more importantly, take 
those assessments and turn them into corrections within their 
cybersecurity program.
    Mr. Hice. Absolutely. I totally agree. And, Director, I 
will come back to you. The census security assessment 
identified 217 high risk or very high risk corrective actions 
that need to be addressed. As I understand it, there have been 
104 of those delayed.
    Mr. Dillingham. That is correct.
    Mr. Hice. That does not sound like you are on top of the 
ball here.
    Mr. Dillingham. If I could--Congressman, I appreciate your 
concern and we are concerned as well. But let me provide a 
little bit of context. We identified, in the last year, 150,000 
vulnerabilities, and when we don't resolve those 
vulnerabilities we create a plan of action and we establish 
milestones, and those plans of action and milestones is what 
GAO looks at. They look at the milestones that we have 
established. So we have an ongoing inventory of approximately 
300 out of many, many thousands, and we have them, coming off 
each and every day.
    As a matter of fact, I am apprised that we do at least 100 
a month--that is several every day--coming off of the list, and 
others coming on----
    Mr. Hice. What are the chances----
    Mr. Dillingham [continuing]. and we will----
    Mr. Hice [continuing]. what are the chances you complete 
all of this----
    Mr. Dillingham. There is no chance.
    Mr. Hice [continuing]. before----
    Mr. Dillingham. There is no chance. The way we----
    Mr. Hice. So it is not pie in the sky, as you described it.
    Mr. Dillingham. No. No, absolutely not. We are managing 
risk, and that is going to be until this census is completed, 
there will be risks identified and risks coming off. So we are 
working the list, and that is the way we do--and that is 
actually the way GAO recommends we do business, is risk 
management and risk mitigation. And we have the people and 
resources, and that is what we are working it.
    But I would never envision that risk list would reach zero.
    Mr. Hice. Thank you, Madam Chair.
    Ms. Ocasio-Cortez. Thank you. The chair now recognizes the 
gentleman from California, Mr. Gomez.
    Mr. Gomez. Thank you, Madam Chair.
    While the citizenship question is over, I believe the 
ramifications of the question still remain. Fear and confusion 
in our communities still exist and we must ensure that millions 
of Americans, rich and poor, citizen and immigrant, are 
counted. Historically, communities of color and immigrant 
communities have been under-counted, while non-Hispanic whites 
have had a higher count.
    As someone who represents one of the most diverse districts 
in the country, this is a big concern of mine. California's 
34th congressional District is home to multiple communities, 
like Chinatown, Koreatown, and Boyle Heights, composed of a 
wide range of ethnicities and nationalities, with dozens of 
languages spoken in the district, many residing in multi-family 
households, and some living below the Federal poverty level. 
All these barriers make the enumeration in my district 
difficult, making it one of the hardest-to-count districts in 
the country, with 42 percent of my constituents living in hard-
to-count neighborhoods.
    More concerning is that the 2020 census' increased reliance 
on technology. Although it will have some positive impact, I am 
also concerned about hard-to-count communities. For the 2020 
census, the Census Bureau is pushing 80 percent of the people 
to respond online, with only 20 percent of communities 
receiving a paper form as their first option. But 35 percent of 
U.S. adults don't have access to reliable internet in their 
homes, including 53 percent of Latinos and 43 percent of 
African American communities. In my district alone, one-quarter 
of my district's households have no access to the internet.
    So the first question is, given that more than 35 percent 
of adults lack reliable internet, I am concerned that the 
Bureau is pushing 80 percent of the population to respond 
online. Dr. Dillingham, what is the plan to increase responses 
in under-represented rural and low-income communities that have 
disproportionately lower rates of internet access?
    Mr. Dillingham. Congressman, that is an excellent question, 
and we are working the hard-to-count. But let me clarify some 
of the context--and when we met last week with the 
congressional Hispanic Caucus we also discussed some of these 
topics.
    But our language assistance will reach 99.6 percent of the 
population, and in those areas where there is a substantial 
Hispanic community, they will be in those two languages, both 
English and Spanish. The 80 percent figure--I apologize, I have 
never heard before, and we don't use the 80 percent figure. 
Actually, if we received 80 percent of people responding 
electronically that would be a mammoth accomplishment, but we 
don't expect that. We are actually aiming--I think it is 60.5, 
and we will have to see how that comes out.
    But the paper--the paper--I just want to remind everyone 
the paper--if a person does not respond online or by phone they 
are going to receive the paper, and in the hard-to-count 
communities they receive the paper questionnaire in the first 
communication. We send out five mailings to the communities in 
the hard-to-count. In many of those they will receive it in the 
first mailing, and then they receive it again in the fourth 
mailing.
    So every household that hasn't responded will receive a 
paper questionnaire that they can submit, and in some 
instances----
    Mr. Gomez. Let me follow along with that.
    Mr. Dillingham. Yes.
    Mr. Gomez. I have been informed that some advocates said 
that the Bureau identified that 20 percent of the communities 
will receive a paper form first. Is that correct?
    Mr. Dillingham. Well, I will have to look. One of the 
things we do--I think if the community, if the area is 20 
percent of Hispanic, for example----
    Mr. Gomez. Okay.
    Mr. Dillingham [continuing]. then they will get the paper 
in the first mailing.
    Mr. Gomez. Okay. So a lot of advocates, a lot of groups 
that are working on this want to know the list of communities 
that will receive that paper ballot first. Could you make that 
list of communities available?
    Mr. Dillingham. I would not see why not. I am not sure. It 
could be a moving list, but we will work with you on that.
    Mr. Gomez. Okay. I appreciate that.
    If someone wants to answer on a paper form that is not 
included on the 20 percent of communities, how can they get 
one?
    Mr. Dillingham. Again, it will be mailed to them. They 
should have--there will be five mailings. If they are in the 
hard-to-count communities, as we were describing, they will get 
it the first and the fourth. Now the normal--I will just call 
it the non-hard-to-count populations--receive it on the fourth. 
So in these mailings--it will come to their household, a hard 
copy, on paper.
    Mr. Gomez. Okay. One--well, I am almost out of time, but 
the National Association of Latino Elected Officials reported 
that only 20 percent of Latino participants responded digitally 
in the end-to-end test in Providence, compared to 70 percent of 
the general population. Does that comport with your 
understanding?
    Mr. Dillingham. I don't have the--I wouldn't challenge that 
at all, but I will check on that.
    Mr. Gomez. Okay. Well, thank you for coming. This is an 
important issue for all of us. I believe that the citizenship 
question would have had a huge negative impact on the count. I 
am glad that is resolved. But we are still going to work to 
make sure that you get the resources and we get everybody on 
board to ensure a complete and accurate count.
    Thank you so much.
    Mr. Dillingham. We appreciate your support. Thank you so 
much.
    Mr. Gomez. And I yield back to the chair.
    Ms. Pressley.
    [Presiding.] The gentleman's time has expired. I now 
recognize myself for five minutes.
    Mr. Dillingham, I want to thank you for being here today. 
Please know that Congress is a partner in this endeavor, and as 
evidenced by this committee we plan to stay engaged and to do 
the work today, in 2019, so we can be ready in 2020.
    I represent the Massachusetts 7th congressional District, 
which includes Boston. Boston ranks ninth among the 100 largest 
cities where it is hardest to count, and we see that under-
count resulting in really stark disparities and inequities in 
the district. Plainly speaking, if you are not counted, you 
don't count. And there are so many communities, from the LGBT 
community to renters, who are unseen and not counted.
    So today I would like to focus my questions to the Bureau 
specifically.
    Dr. Dillingham, on July 11, 2019, an Executive Order was 
signed directing the Commerce Department to obtain citizenship 
data by other means. Dr. Dillingham, in light of the Executive 
Order, will the Bureau be producing block-level data on 
citizens and non-citizens? Yes or no.
    Mr. Dillingham. Block level, I would--at a level they will, 
of citizen versus non-citizen, from administrative data. That 
is correct. The availability of block-level, I am not quite 
sure, because it is a complicated thing. But we also have some 
very important protections at the basic level. We call it 
disclosure avoidance, where we inject noise into the data. So 
what level is yet to be determined.
    Ms. Pressley. I see. Has anyone in the Administration 
indicated to you that block level data produced by the Bureau 
will be used to target neighborhoods for immigration 
enforcement? Yes or no.
    Mr. Dillingham. Congresswoman, I am aware of concerns 
about--the Census Bureau never does any law enforcement--it 
would prohibit it from law, from doing it. The only thing that 
we release are statistics, aggregate numbers, and we protect 
the privacy. So the data is made available to the Nation, so--
but I can tell you----
    Ms. Pressley. I am so sorry. Just reclaiming my time----
    Mr. Dillingham. Yes.
    Ms. Pressley [continuing]. and my time is short here. What 
would you say to those who are concerned about this block level 
data being used for that purpose? Because I understand what you 
are saying here, but how do you communicate en masse what you 
are saying, that you don't collaborate in that way?
    Mr. Dillingham. Very important, and one of the things that 
we are doing right now is the messaging for our outreach 
campaign to make sure they understand the security that is in 
place and why they should not be afraid to complete the census. 
But also what is very important are the trusted voices, such as 
Members of Congress, others in the communities----
    Ms. Pressley. Excuse me. My district is 40 percent 
immigrant. I can't even begin to count--in our Boston public 
schools alone there are 150 different languages.
    Mr. Dillingham. Sure.
    Ms. Pressley. So do you have the staffing resources to 
communicate in the most culturally competent of ways, given the 
diversity of districts which are historically undercounted?
    Mr. Dillingham. Well, we do have the language assistance at 
99.6 percent, and then once we enter the enumeration phase, our 
enumerators are trained to get the assistance. We have 
special--even to outreach, even to the handicapped or the 
people with special needs of all types. And so we will, through 
our enumerators and through our partnership specialists, and 
through our outreach campaign, will address those needs.
    Ms. Pressley. Okay. Can you confirm for us today that the 
citizenship data collected pursuant to the Executive Order will 
not be used in the Bureau's apportionment counts?
    Mr. Dillingham. The--we produce--I--and apportionment 
accounts--let me get back to you on that.
    Ms. Pressley. Do you believe it should be used for that 
purpose?
    Mr. Dillingham. I don't have any belief whatsoever. I just 
need to know the mechanics, Congresswoman, and I will get back 
to you on that. But what the----
    Ms. Pressley. Please do. Is it possible you could get back 
to me with an answer in the next 10 days----
    Mr. Dillingham. Um----
    Ms. Pressley [continuing]. specifically on this question--
--
    Mr. Dillingham [continuing]. yes.
    Ms. Pressley [continuing]. if you plan to use this data 
collected pursuant to the--that it will not be used in the 
Bureau's apportionment count? Can you give me an answer on 
that, in writing?
    Mr. Dillingham. I--I don't see why I couldn't.
    Ms. Pressley. Okay. Wonderful.
    Mr. Dillingham. I don't have the answer.
    Ms. Pressley. Okay. Will the information be used in 
determining the allocation of Federal resources for Medicaid or 
for CHIP, for the Children's Health Insurance Plan?
    Mr. Dillingham. Congresswoman, we don't determine the uses 
of it. We just produce the numbers.
    Ms. Pressley. Do you believe it should be used for that 
purpose?
    Mr. Dillingham. We--we hope that our data is accurate and 
complete and is useful for many purposes. But all the Federal 
programs, totaling more than 675--some people estimate it could 
be close to $1 trillion, we hope that our data that they are 
using is very accurate, complete.
    Ms. Pressley. Okay. Have you, or anyone you know, discussed 
including citizenship data in the redistricting file?
    Mr. Dillingham. In the redistricting file? The--
Congresswoman, let me get back to you on that.
    Ms. Pressley. I would love to understand if you have those 
conversations and what was the nature of those conversations 
and who participated.
    Mr. Dillingham. There--if you--I can only refer you to the 
Executive Order that we are going to be looking at and putting 
the administrative data together. I can refer you to that. So 
whatever that Executive Order says.
    Ms. Pressley. All right, Doctor, my time has expired. I now 
recognize the gentlelady from New York, Mrs. Maloney.
    Mrs. Maloney. I thank the chairlady for yielding and I 
thank all the panelists for your testimony today. It is a very 
busy last week here in Congress, and I thank you for all your 
hard work, all of you.
    In the past two years, it has shown that the census is 
vulnerable to political manipulation, when the citizenship 
question was added. In fact, our Nation was one vote on the 
Supreme Court away from erasing an estimated 8 million people, 
professionals said, from the formulas we use to determine who 
represents us and who governs us and how we distribute over 
$700 billion in Federal funds yearly. And we really cannot 
allow our country to be in that position again, where really 
the accuracy of the census is questioned.
    So my first question is about a bill that I authored called 
the Census Idea Act, which would prevent arbitrary and 
capricious harmful questions from being added at the last 
minute, really over the objection of the professionals at the 
Census Bureau and many others. And the way you would prevent 
that is require, by law, basically the administrative code as 
it exists now, and require in law testing periods for each 
question, additional reporting to Congress on that testing, and 
certification by the GAO that tests were adequate before forms 
can be printed.
    And this bill, in my opinion, would allow the country to be 
protected from what Judge Furman called, in one of the 
decisions, capricious and arbitrary addition of questions to 
the census, basically to have the formula--actually, it is the 
formula that is in the administrative code, but the Census 
Bureau decided not to follow the administrative code.
    So I would like to present this question to all of you in 
writing, and with the bill, and give you a chance to see the 
bill, and particularly GAO, I would like your responses to it 
on whether you think it would prevent capricious and arbitrary 
tampering with the census in the future, so that it is well 
thought out, approved, done in the proper procedures. And I 
think it is important that we not only make sure that everyone 
is counted but we prevent any type of behavior that undermines 
the accuracy of the census.
    But now, moving forward, and would all of you respond in 
writing to this question and to viewing it? I would appreciate 
it.
    [Witnesses nod heads.]
    Mrs. Maloney. Okay. Thank you.
    Now I really want to talk about the neighborhood 
partnership specialists, and I understand that that is 
critical. We have the Census Bureau up and running in New York 
now, and the director there says that these partnerships are 
very important, and that we need to have them fully operational 
partnerships, that they are essential to the 2020 census. And I 
would like to really ask, first of all, Mr. Dillingham, do you 
think these partnerships are important and are you--the 
Bureau's goal was to have 1,500 partnership specialists on 
board by the end of June, and I would like to know, did we meet 
that deadline--maybe I would ask Mr. Goldenkoff, since you 
wrote about it--and how far behind is the Bureau? And then I 
would like to hear from Mr. Dillingham whether we can move 
forward quickly to get this in place.
    Mr. Goldenkoff. Sure. Well, thank you. That is an excellent 
question. As you know, partnership specialists are so important 
in terms of convincing people, particularly populations that 
are traditionally under-counted, to participate in the census. 
They are the so-called trusted voices.
    The Census Bureau had planned to hire around 1,500 
partnership specialists by the end of June of this year. They 
fell short of that goal. As of July 8, they had only 813 
partnership specialists hired, and they hope now to reach that 
full complement of 1,500 by September. So already the Census 
Bureau is two months behind on this important effort.
    Mrs. Maloney. So Mr. Dillingham, as I understand it the 
delay in hiring is caused by massive backlog in background 
checks, and the Bureau is about to embark on a massive hiring 
effort where it will seek to hire roughly 15,000 workers for 
area census offices and non-response followup. And if the 
Bureau can't handle the 1,500 background checks, how in the 
world is it going to handle 15,000, which I understand is your 
goal?
    Mr. Dillingham. Congresswoman, I certainly appreciate it 
and I certainly agree with your observation on how important 
the partnership specialists are. As a matter of fact, when I 
met in your office in New York City we had partnership 
specialists with us, and I addressed the whole region's 
partnership specialists in a phone call from the van while we 
were outside your office.
    Mrs. Maloney. Yes.
    Mr. Dillingham. And I also notice, besides these 
partnership specialists, we shared with you the information, 
where you had the longest list of the Members of Congress whose 
districts we had, in terms of your partners, and we commend you 
on that.
    But on the partnership specialists, we have made more than 
1,600 offers. The majority are on board. But we are waiting for 
a few that--and as has been pointed out, we are going to be on 
track, on time. So within 30 days they will all be onboarded. 
We should have--we envisioned 1,500, but, in fact, we have made 
offers to more than 1,600.
    In addition to that, as I had mentioned with the 
Appropriations Committee, we presented an option for Congress 
to consider, that we could, in fact, besides the 1,500, which 
doubled from the last decennial census, we could have up to 
5,000 assistants that would assist the partnership specialists, 
and that would be from continuing on our assistant recruiters 
who have already gone through the hiring process and have the 
computers, and they could be dispatched to assist the 
partnership specialists.
    So there is a mammoth--the effort being made in devotion of 
resources to this topic. And in our hiring, we are presently 
hiring, as you are well aware, the address canvassers, and we 
have----
    Mrs. Maloney. But my question is, not the 1,500, you are 
going to move forward on that----
    Mr. Dillingham. Mm-hmm.
    Mrs. Maloney [continuing]. but you are supposed to hire 
another 15,000 non-response followup workers. And if you are 
having trouble hiring the 1,500, how are you going to hire the 
15,000, with the background----
    Mr. Dillingham. I appreciate your concern, but we have not 
reached the stage yet for the non-response followup. That will 
be in our peak hiring and we will be advertising later. But 
right now we have over a half million applicants in our 
applicants. More than 600,000 have gone to our website and 
begun the process to apply for jobs. And we are hiring, 
currently, 40,000 out of that 500,000. So at this point in time 
we were very pleasantly surprised at the job pool that was out 
there.
    Mr. Raskin.
    [Presiding.] The gentlelady's time has expired.
    Mrs. Maloney. Can you give me two seconds more, three 
seconds more----
    Mr. Raskin. Okay. One final question.
    Mrs. Maloney [continuing]. for a GAO question? Mr. 
Dillingham, will you commit to providing a detailed plan to GAO 
and to this committee on how you will improve the background 
check process and stay on schedule? We just--we want you to 
stay on schedule, and I am sure you are going to do it, but let 
us know how you are going to do it. Okay?
    Mr. Dillingham. Congresswoman, we certainly will. Thank you 
so much.
    Mrs. Maloney. Thank you.
    Mr. Raskin. Thank you very much.
    Mrs. Maloney. And may I thank the chairman for being a 
visionary on the census and in so many other----
    Mr. Raskin. I appreciate that.
    The gentlelady from Illinois is now recognized. Ms. Kelly?
    Ms. Kelly. Thank you, Mr. Chairman. If I am redundant I 
apologize. I had other hearings.
    Dr. Dillingham, the 2020 census will use cloud technology 
to stored data from respondents. Correct?
    Mr. Dillingham. That is being pursued. That is correct.
    Ms. Kelly. The Commerce inspector general investigated the 
Bureau's cloud-based IT systems for the 2020 census and found 
what it called fundamental security deficiencies that violated 
Federal standards and the U.S. Department of Commerce policies. 
Are you familiar with this report?
    Mr. Dillingham. Yes, I am.
    Ms. Kelly. In that report, the IG office writes that it 
found severe risk to 2020 census cloud environment. Dr. 
Dillingham, the 2020 census cloud environment is where 
residents' confidential data will be stored. Correct?
    Mr. Dillingham. That is correct.
    Ms. Kelly. And the IG's office found security issues that 
left critical systems vulnerable, quote/unquote, and found that 
basic security practices were not fully implemented to protect 
Title 13 data.
    Why have basic practices not been implemented to protect 
data, which is considered among the most confidential under 
Federal law?
    Mr. Dillingham. Certainly, Congresswoman, and let me fully 
explain also that there was no breach of the system. And as 
revealed in that report, as the system was being set up it 
really was an access issue, and we do involve contractors, and 
there was a--and I am going to generalize it here--but there 
was actions--corrective actions were taken to make sure that no 
one had the special capability of accessing the system. And 
they further identified the problem of when you have data on 
the cloud you need plans in place to take it down, so that none 
of that data remains.
    And so those were two things; we very much respect the 
findings of the inspector general. Immediate action was taken. 
It was some time ago. It involved contractors and setting up 
the system. But by the time of the 2020 census--and those 
corrective actions have already taken place, but we will have 
more by the time of the 2020 census. Thank you.
    Ms. Kelly. Thank you. The report concludes many of these 
deficiencies indicate that the Bureau was behind schedule. Mr. 
Marinos, do you agree that the Bureau rushed to deploy IT 
systems with truncated IT security testing, as the IG 
indicated?
    Mr. Marinos. Yes, and, in fact, we have previously reported 
it, based on the Bureau itself identifying that there were time 
constraints that resulted in shorter timeframes for testing 
during the 2018 end-to-end test.
    Ms. Kelly. Okay. And, Dr. Dillingham, the IG's report 
indicates that the Bureau agreed to implement all of its 
recommendations.
    Mr. Dillingham. Let me explain, as a matter of course. We 
appreciate these people looking over our shoulder. They see our 
timelines, they see our milestones, and they hold our feet to 
the fire. If we are not meeting those milestones they remind 
us. We appreciate it greatly.
    Ms. Kelly. So you will confirm here today that you will 
implement each and every recommendation?
    Mr. Dillingham. So far, I think we have agreed to all. 
Maybe there is one that was actually post-2020 census. But our 
normal practice is to agree and to take corrective action. That 
is correct.
    Ms. Kelly. And how are you doing on your timeline with 
completing the recommendations and repairing the fundamental 
security deficiencies?
    Mr. Dillingham. Certainly. There are certain areas, and the 
ones they were tracking, we are making tremendous progress. The 
majority corrective actions have been taken. Some are underway. 
And so we monitor it each and every week and we are looking to 
see the progress has been made, and will continue to do that.
    Ms. Kelly. Thank you.
    Mr. Marinos, will GAO be tracking the Bureau's progress on 
the IG recommendations?
    Mr. Marinos. Yes. We coordinate very closely with the 
Inspector General's Office on related reviews, and on a 
continual basis talk about the status of recommendations. I 
believe there were eight recommendations made by the Inspector 
General's Office within that report, several of them that we 
think are vital to implement as quickly as possible.
    Ms. Kelly. And have you received a plan on how this will be 
accomplished?
    Mr. Marinos. We haven't. I think it would be best to defer 
to the IG on those specific recommendations, but I would say 
that this relates also to our more general recommendations 
around corrective actions and ensuring that the Bureau is 
prioritizing all of this good feedback it is getting from these 
sources, and making decisions on what to tackle first.
    Ms. Kelly. Additionally, the GAO, in its monitoring of the 
Census Bureau, found that the Bureau is at risk of not meeting 
near-term IT system development and testing schedule milestones 
for five upcoming 2020 census operational deliveries. Mr. 
Goldenkoff, can you tell us what those five are and how they 
are delayed--and how delayed they are, I should say?
    Mr. Goldenkoff. I will refer to----
    Mr. Marinos. Sure. The five operational deliveries relate 
to peak recruiting and hiring, internet self-response, remote 
Alaska counting, and then group quarters enumeration, both 
advanced and enumeration activities.
    In terms of where they are right now, there are multiple 
milestones related to each of these deliveries, and again, 
across the 52 systems several systems may be touched at 
different times. I think that the most important and most 
critical ones are going to be based on what operations are 
coming up. We did see, to the Bureau's credit, address 
canvassing, from when we were recently tracking in the spring, 
come off of the at-risk list, and that is an operation that is 
starting up in August. But we will continue to monitor the 
status of these deliveries as well.
    Ms. Kelly. And they also are very, very important and 
critical to the success of the 2020 census. Thank you. I yield 
back.
    Mr. Raskin. Thank you. The gentlelady's time has expired. 
We now go to go to the gentleman from the 4th District of 
Nevada, who is waived on today, Mr. Horsford.
    Mr. Horsford. Thank you, Mr. Chairman, Chairman Raskin, and 
thank you very much for allowing me to be here today to speak 
about the importance of the U.S. census, particularly for the 
African American community.
    Just yesterday, the congressional Black Caucus, under the 
leadership of Congresswoman Karen Bass, our chair, launched a 
new census--the 2020 Census Task Force, of which I will serve 
as chair. One of the goals of the task force will be to partner 
with the Census Bureau and coalition stakeholders to ensure an 
inclusive, complete, and accurate 2020 census count. We will 
also work to increase the participation of all communities, but 
specifically black residents as well as black immigrants, and 
ensure a fair and accurate count of all people across the 
United States.
    During the last census count in 2010, African Americans 
were under-counted by over 800,000. That is totally 
unacceptable and we must close the gap and ensure higher 
participation in the 2020 census so that all communities that 
need Federal resources are able to receive them.
    So my question is, first, does the Bureau have a goal or 
plan to improve the black under-count and increase 
participation?
    Mr. Dillingham. Mr. Congressman, we certainly do, and I 
agree with every statement you just made. There is nothing more 
important, no higher priority than reaching the hard-to-count, 
and among the hard-to-count are certain populations, including 
the black populations. And so we are engaged in that. We are 
doing it through the ways that I have mentioned, in terms of 
our communications campaign, in terms of our partnerships. But 
I want to commend you, that one of the most important things is 
to have the groups at the local level that have formed the task 
forces, the complete count committees, working with your 
stakeholders. We cannot conduct the decennial census without 
the support of the Congress and the communities and the 
partners and the state and the local governments, and I commend 
you for doing that. And we have given toolkits to all Members 
of Congress, and I know many are helping us in so many ways.
    Mr. Horsford. Thank you.
    Mr. Dillingham. We appreciate your help.
    Mr. Horsford. And I look forward to reviewing that plan.
    Has an analysis been done to determine the impacts that the 
consolidation of the census offices will have on hard-to-count 
communities? For instance, we learned, within our CBC task 
force meeting, that there are only going to be six regional 
census offices to serve the entire United States. So what 
analysis went into the decisionmaking to reduce by half the 
number of census offices and what steps are being done to 
remedy this issue?
    Mr. Dillingham. Mr. Congressman, the regional offices 
mirror our regional offices that are in place permanently, and 
so that is where the six, but we have 248 area census offices, 
which is, in fact--we had a discussion earlier--it is a 
reduction from the past.
    But let me explain to you that in reducing those offices we 
are beefing up the mobile response so we can take the devices 
directly into the community centers, into the churches, into 
the areas of need.
    Mr. Horsford. What was the justification for cutting by 
half the offices? There were over 450----
    Mr. Dillingham. That is correct.
    Mr. Horsford [continuing]. and there were 12 regional 
offices. If you could just get to us with any----
    Mr. Dillingham. I certainly will, but let me just say, 
generally, it was the conclusion of the professionals at the 
Census Bureau who have done many, many decennial censuses, that 
it was not cost-effective, that we had better technologies, we 
could reach people better, devoting more resources to reach 
those people, and the bricks and mortar, in many instances, was 
not working.
    The General Accountability Office has said that this 
decennial census cannot follow the same practices of the past. 
That was one of the areas where we saw a great opportunity for 
improvement.
    Mr. Horsford. And one of those areas is to have it 
completed through the internet. However, many hard-to-count 
communities do not have access to the internet. So what are the 
Bureau's plans to help ensure seniors, low-income populations, 
and others get counted?
    Mr. Dillingham. Again, that is one of the areas that we are 
working the hardest on, and we think we have a lot to show. The 
tools we have with the internet and the telephone options, 
where people can answer anytime, anywhere, are very important 
in the hard-to-count communities. In Columbia, South Carolina, 
they are putting Wi-Fi in the city busses. People on their way 
to work can get on their phone and answer the census in less 
than 10 minutes. It is very important that we apply all these 
technologies to the hard-to-count communities. We are in total 
agreement with you there.
    The bricks-and-mortar idea is sort of gone. If I could do 
an analogy, it is like if you are in the volume pizza business 
you usually have a delivery service now, and we need to reach 
these people in the most efficient, effective way possible. And 
working with the groups that you are part of enable us to do 
that.
    When we go to a community center we expect, yes, we will 
have a partnership specialist there or an assistant, but we 
will have dozens of people from that community--volunteer 
organizations, partners, stakeholders, et cetera--that will be 
working with us, and that really makes it happen and gets the 
job done.
    Mr. Raskin. Thank you, Mr. Dillingham. The gentleman's time 
has expired and I am going to recognize, finally, the 
gentlelady from Massachusetts, just for two minutes.
    Ms. Pressley. Thank you, Mr. Chair. Just picking up on my 
previous line, Dr. Dillingham, regarding the diversity 
throughout our country but certainly the district that I 
represent, the Massachusetts 7th, as I said, nearly 40 percent 
of my residents are foreign-born and speak languages other than 
English. You spoke to me a little bit about how you plan to 
engage those communities and to--you have got a big job in 
combating a lot of the misinformation and fear that has been 
stoked.
    Just--I want to use this platform responsibly here. One of 
my constituents comes across something on social media or in 
the mail, for example, that they believe is fraudulently 
representing itself as part of the census. How should they 
report that?
    Mr. Dillingham. We will have procedures in place to do 
that. Particularly, we will have, through our customer 
assistance centers, by phone, people can pick up the phone and 
say, ``Hey, someone is in my neighborhood,'' or ``There is 
something on the internet.''
    Ms. Pressley. Is there a number that you can share today, a 
number, an email address, or a website they should go contact 
or report to?
    Mr. Dillingham. On the website, I will double-check to see 
what our website will have. But there should be certainly 
referral information and there should be procedures in place 
exactly to report, that we are working with law enforcement 
nationwide----
    Ms. Pressley. Okay.
    Mr. Dillingham [continuing]. to make sure we--they are 
aware of that problem.
    Ms. Pressley. All right. Is there any process in place 
where people can contact you to find out whether a document is 
a legitimate 2020 census document?
    Mr. Dillingham. I--specifically for that, I think there is, 
but I will verify and get back to you.
    Ms. Pressley. Okay. On both of those, I just would 
appreciate----
    Mr. Dillingham. Certainly.
    Ms. Pressley [continuing]. having information that we can 
promote on our platforms, to combat any fraud.
    Mr. Dillingham. Absolutely, and fraud is one of the things 
that we are certainly working with other agencies and groups to 
prevent.
    Ms. Pressley. Thank you. I yield.
    Mr. Dillingham. Thank you.
    Mr. Raskin. Thank you. The gentlelady's time has expired.
    I want to thank Mr. Hice for his patience. I want to thank 
all the members for their participation today, and I want to 
thank the witnesses for excellent testimony, and we will look 
forward to working with you for the most successful possible 
count we can get in 2020. Thank you for your testimony.
    [Whereupon, at 2:32 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
